2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

@OCKLE

Legal Briefs

Est. 1923

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

No. 19-351

FEDERAL REPUBLIC OF GERMANY, a foreign state,
and STIFTUNG PREUSSICHER KULTURBESITZ,

Petitioners,
Vv.
ALAN PHILIPP, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the REPLY TO BRIEF IN
OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the above entitled case complies

with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century

Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 2988 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska

My Commission Expires Nov 24, 2020

 

hoz, blll Qudiawh, ble

Notary Public Affiant 38817
